                Taxpayer Rights Are Being Protected When
                            Levies Are Issued

                                     June 2005

                       Reference Number: 2005-30-072




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      June 1, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Taxpayer Rights Are Being Protected When
                                   Levies Are Issued (Audit # 200430029)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) has complied with 26 United States Code (U.S.C.)
      Section (§) 6330, Notice and Opportunity for Hearing Before Levy.1 The IRS
      Restructuring and Reform Act of 1998 (RRA 98)2 requires the IRS to notify taxpayers at
      least 30 days before initiating any levy action to give taxpayers an opportunity to
      formally appeal the proposed levy. Specifically, we determined whether the IRS has
      sufficient controls in place to ensure that taxpayers are advised of their right to a
      hearing at least 30 days prior to levy action. This is the seventh annual report the
      Treasury Inspector General for Tax Administration (TIGTA) has issued in compliance
      with the RRA 98 to determine whether the IRS is complying with legal guidelines over
      the issuance of levies.
      Prior TIGTA reports have recognized that the IRS has implemented tighter controls
      over the issuance of levies. This was due primarily to the development of systemic
      controls in both the Automated Collection System (ACS)3 and the Integrated Collection



      1
        26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
      Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
      of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134, 115
      Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
      2
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
      3
        The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
      returns from delinquent taxpayers who have not complied with previous notices.
                                                         2

System (ICS)4 to prevent a levy from being generated unless there were at least
30 days between the date taxpayers received notice of their appeal rights and the date
of the proposed levy. Our testing of these controls indicated that they continue to
function effectively.
Prior years’ reports5 also addressed the issue of revenue officers not always properly
notifying taxpayers of their appeal rights when issuing manual levies to seize taxpayer
assets. In last year’s report, we recommended the IRS reconsider requiring managers
to review manual levies prepared by a revenue officer. The IRS declined to implement
this recommendation but did issue an ICS Alert on March 5, 2004, reminding employees
to ensure taxpayer rights are protected whenever a manual levy is issued. Our review
of 32 ICS and 29 ACS manual levies issued between July 1 and September 30, 2004,
showed the IRS properly informed taxpayers of their appeal rights at least 30 days prior
to issuing the levies.
We made no recommendations in this report. However, key IRS management officials
reviewed it prior to issuance. Copies of this report are also being sent to the IRS
managers affected by the report findings. Please contact me at (202) 622-6510 if you
have questions or Richard Dagliolo, Acting Assistant Inspector General for Audit (Small
Business and Corporate Programs), at (631) 654-6028.




4
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices.
5
  Additional Efforts Are Needed to Ensure Taxpayer Rights Are Protected When Manual Levies Are Issued
(Reference Number 2004-30-094, dated April 2004); and The Internal Revenue Service Does Not Have Controls
Over Manual Levies to Protect the Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
                  Taxpayer Rights Are Being Protected When Levies Are Issued




                                             Table of Contents


Background ............................................................................................... Page 1
Controls Implemented to Protect Taxpayer Rights During the
Issuance of Systemic Levies Are Operating Effectively............................. Page 3
Revenue Officers Properly Notified Taxpayers of Their
Appeal Rights Prior to Issuing Manual Levies ........................................... Page 4
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 6
Appendix II – Major Contributors to This Report ....................................... Page 8
Appendix III – Report Distribution List ....................................................... Page 9
Appendix IV– Example of Levy (Form 668-B) ........................................... Page 10
             Taxpayer Rights Are Being Protected When Levies Are Issued

                                When taxpayers do not pay delinquent taxes, the Internal
Background
                                Revenue Service (IRS) has the authority to work directly
                                with financial institutions and other third parties to seize
                                taxpayers’ assets. This action is commonly referred to as a
                                “levy.” The IRS Restructuring and Reform Act of 1998
                                (RRA 98)1 requires the IRS to notify taxpayers at least
                                30 days before initiating a levy action to give taxpayers an
                                opportunity to formally appeal the proposed levy.
                                The RRA 98 also requires the Treasury Inspector General
                                for Tax Administration (TIGTA) to annually verify that the
                                IRS is complying with the provisions. This is the seventh
                                year that the TIGTA has evaluated the controls over levies.
                                Two operations within the IRS issue levies to collect
                                delinquent taxes:
                                    •    The Automated Collection System (ACS),2 where
                                         Customer Service Representatives (CSR) contact
                                         delinquent taxpayers by telephone to collect unpaid
                                         taxes and secure tax returns.
                                    •    The Collection Field function (CFf), where revenue
                                         officers contact delinquent taxpayers in person as the
                                         final step in the collection process. Field contact
                                         becomes necessary when the ACS does not resolve
                                         the tax matter. Delinquent cases that are assigned to
                                         revenue officers in the IRS field offices are
                                         controlled and monitored with the Integrated
                                         Collection System (ICS).3




                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  The ACS is a telephone contact system through which telephone
                                assistors collect unpaid taxes and secure tax returns from delinquent
                                taxpayers who have not complied with previous notices.
                                3
                                  The ICS is an automated system used to control and monitor
                                delinquent cases assigned to revenue officers in the IRS field offices.
                                                                                                 Page 1
Taxpayer Rights Are Being Protected When Levies Are Issued

                   Both operations issue two types of levies: systemically
                   generated levies and manual levies. Previous TIGTA
                   reports4 have recognized that the IRS has significantly
                   improved controls over the issuance of systemically
                   generated levies. This was due primarily to the
                   development of systemic controls in both the ACS and ICS
                   to prevent a levy from being generated unless there were at
                   least 30 days between the date taxpayers received notice of
                   their appeal rights and the date of the proposed levy.
                   However, previous reports, including the TIGTA’s
                   April 2004 report, did identify that additional controls were
                   needed over manual levies issued by revenue officers.5 In
                   the April 2004 report, we recommended the IRS reconsider
                   requiring managers to review manual levies prepared by a
                   revenue officer. The IRS declined to implement this
                   recommendation but did issue an ICS Alert on
                   March 5, 2004, reminding employees to ensure taxpayer
                   rights are protected whenever a manual levy is issued.
                   This review was conducted at the Small Business/
                   Self-Employed Division Headquarters in the Collection and
                   Campus Compliance Services offices in New Carrollton,
                   Maryland. We conducted the audit from October 2004
                   through March 2005 in accordance with Government
                   Auditing Standards.
                   Detailed information on our audit objective, scope, and
                   methodology is presented in Appendix I. Major
                   contributors to the report are listed in Appendix II.




                   4
                     The Internal Revenue Service Does Not Have Controls Over
                    Manual Levies to Protect the Rights of Taxpayers (Reference
                   Number 2003-40-129, dated June 2003); The Internal Revenue Service
                   Has Improved Controls Over the Issuance of Levies, But More Should
                   Be Done (Reference Number 2002-40-176, dated September 2002); The
                   Internal Revenue Service Complied With Levy Requirements (Reference
                   Number 2001-10-113, dated July 2001); and The Internal Revenue
                   Service Has Significantly Improved Its Compliance With Levy
                   Requirements (Reference Number 2000-10-150, dated September 2000).
                   5
                     Additional Efforts Are Needed to Ensure Taxpayer Rights Are
                   Protected When Manual Levies Are Issued (Reference
                   Number 2004-30-094, dated April 2004); and The Internal Revenue
                   Service Does Not Have Controls Over Manual Levies to Protect the
                   Rights of Taxpayers (Reference Number 2003-40-129, dated June 2003).
                                                                               Page 2
              Taxpayer Rights Are Being Protected When Levies Are Issued

                                  Our review of systemically generated levies showed that
Controls Implemented to
                                  taxpayers’ rights were protected. The taxpayers were given
Protect Taxpayer Rights During
                                  notice of their appeal rights at least 30 days prior to the
the Issuance of Systemic Levies
                                  issuance of the levies.
Are Operating Effectively
                                  ACS controls
                                  The first step in the collection process involves mailing
                                  taxpayers a series of notices asking for payment of
                                  delinquent taxes. If taxpayers do not comply, the majority
                                  of the accounts are forwarded to an ACS Call Center where
                                  CSRs contact taxpayers by telephone to resolve their
                                  accounts. If accounts cannot be resolved, CSRs have the
                                  authority to issue levies. See Appendix IV for an example
                                  of a levy form.
                                  Virtually all levies issued by CSRs are generated through
                                  the ACS, which contains a control developed to comply
                                  with the RRA 98 that compares the date the taxpayer was
                                  notified of the pending levy with the date requested for the
                                  actual issuance of the levy. If there are fewer than 30 days
                                  between the dates, the ACS will not generate a levy. This
                                  control is designed to ensure taxpayers have been notified at
                                  least 30 days prior to the levy and have been informed of
                                  their appeal rights for any systemically generated levy.
                                  We tested the effectiveness of this control by reviewing a
                                  random sample of 30 systemically generated levies issued
                                  through the ACS between July 1 and September 30, 2004.
                                  We compared the date of the final notification letter to the
                                  date of the issuance of the levy. All 30 taxpayers were
                                  timely notified of their appeal rights. Therefore, the
                                  systemic controls in the ACS Call Centers effectively
                                  protected taxpayers’ appeal rights.
                                  ICS controls
                                  Many times notices and telephone calls to taxpayers do
                                  not successfully resolve delinquent accounts, and cases have
                                  to be assigned to revenue officers in CFf offices for
                                  face-to-face contact with taxpayers. Cases assigned to
                                  revenue officers are controlled on the ICS. Revenue
                                  officers use the ICS to record collection activity on
                                  delinquent cases and generate enforcement actions such as
                                  levies.


                                                                                         Page 3
               Taxpayer Rights Are Being Protected When Levies Are Issued

                                  The IRS installed a control in the ICS similar to the control
                                  in the ACS that prevents a levy from being issued unless
                                  taxpayers have received 30 days notice and been informed
                                  of their appeal rights. If fewer than 30 days have elapsed
                                  since the final notice date, the system will not generate a
                                  levy.
                                  We tested the effectiveness of this control by reviewing a
                                  random sample of 30 systemically generated levies issued
                                  through the ICS between July 1 and September 30, 2004.
                                  We compared the date of the final notification letter to the
                                  date of the issuance of the levy. All 30 taxpayers had
                                  received notification of their appeal rights at least 30 days
                                  prior to the levy. Therefore, the systemic controls over
                                  levies issued by revenue officers in CFf offices effectively
                                  protected taxpayers’ appeal rights.
                                  The second type of levy that both CSRs and revenue
Revenue Officers Properly
                                  officers can issue is the manual levy. The manual levy is
Notified Taxpayers of Their
                                  issued outside the ACS and ICS automated processes and is
Appeal Rights Prior to Issuing
                                  not subject to systemic controls.
Manual Levies
                                  Because manual levies are issued outside the ACS and ICS
                                  automated processes, an automated audit trail for these
                                  actions is not produced. Therefore, it is impossible to
                                  reliably determine the exact number of manual levies that
                                  were issued by either CSRs or revenue officers during our
                                  review period. IRS management did inform us that they
                                  believe manual levies are issued infrequently.
                                  Although ACS CSRs primarily issue levies systemically,
                                  they may also issue manual levies under certain
                                  circumstances, such as levies on Individual Retirement
                                  Arrangements and in jeopardy situations.6 Manual levies
                                  require the same advance notification of the taxpayer as
                                  systemic levies, except in cases involving jeopardy
                                  situations. IRS procedures require that manual levies issued
                                  by CSRs be reviewed and approved by a manager prior to
                                  the levy being issued. We consider this managerial review
                                  to be an effective control.



                                  6
                                   A “jeopardy situation” occurs when the IRS is concerned the taxpayer
                                  may attempt to hide or dispose of assets to prevent enforced collection
                                  actions.
                                                                                                  Page 4
Taxpayer Rights Are Being Protected When Levies Are Issued

                   We analyzed the open ACS case inventory to identify any
                   manual levies issued between July 1, 2004, and
                   September 30, 2004. Because there is no automated audit
                   trail produced for manual levies, we analyzed case history
                   comments for any references to a manual levy. Using this
                   methodology, we identified 29 instances in which a manual
                   levy was issued to seize taxpayers’ assets. Our review of
                   these 29 manual levies issued by CSRs showed the IRS
                   adequately protected taxpayers’ appeal rights.
                   Revenue officers similarly issue levies systemically through
                   the ICS in most cases. They are also authorized to issue a
                   manual levy on any case as needed. While managerial
                   approval is mandatory for manual levies issued by ACS
                   employees, no review or approval is required when revenue
                   officers issue a manual levy. Prior TIGTA reports have
                   identified problems when IRS employees issue manual
                   levies.7 The IRS issued an ICS Alert on March 5, 2004, to
                   remind employees to ensure taxpayer rights are protected
                   whenever a manual levy is issued by revenue officers. We
                   still believe there is a high risk associated with manual
                   levies.
                   We analyzed the ICS case inventory assigned to revenue
                   officers to identify any manual levies issued between
                   July 1, 2004, and September 30, 2004. Because no
                   automated audit trail is produced for manual levies, we
                   analyzed case history comments for any references to a
                   manual levy. Using this methodology, we identified
                   32 cases in which a manual levy was issued to seize
                   taxpayers’ assets. In all cases, taxpayers received proper
                   notification of their rights and were allowed sufficient time,
                   as mandated by the RRA 98, to appeal this action.



                   7
                    Additional Efforts Are Needed to Ensure Taxpayer Rights Are
                   Protected When Manual Levies Are Issued (Reference Number
                   2004-30-094, dated April 2004); and The Internal Revenue Service Does
                   Not Have Controls Over Manual Levies to Protect the Rights of
                   Taxpayers (Reference Number 2003-40-129, dated June 2003).




                                                                                Page 5
                  Taxpayer Rights Are Being Protected When Levies Are Issued

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has complied with 26 United States Code (U.S.C.) Section (§) 6330, Notice and
Opportunity for Hearing Before Levy.1 To accomplish our objective, we:
I.      Determined whether the IRS was maintaining sufficient automated controls and
        procedures to ensure that taxpayers had been advised of their right to a hearing at least
        30 days prior to any levy action.
        A. Determined whether automated procedures to prevent levies from being issued less
           than 30 days from the final notice date were still in place for the Automated
           Collection System (ACS)2 Call Centers and the Integrated Collection System (ICS)3
           and documented the current procedures.
        B. Selected a random sample of 30 ICS levies from the population of 95,354 levies
           issued between July 1 and September 30, 2004, from an extract of the ICS database of
           open cases as of October 2004. We analyzed Master File4 transcripts and the ICS
           record history for the selected sample cases and verified that taxpayers had been
           advised of their right to a hearing at least 30 days prior to any levy action. We did not
           use statistical sampling because, based on prior years’ testing, we did not anticipate
           finding any errors; consequently, we would not need to project our results.
        C. Selected a random sample of 30 ACS levies from the population of 417,802 levies
           issued between July 1 and September 30, 2004, from an extract of the ACS database
           of open cases as of October 2004. We analyzed Master File transcripts and the ACS
           record history for the sample cases selected and verified that taxpayers had been
           advised of their right to a hearing at least 30 days prior to any levy action. We did not
           use statistical sampling because, based on prior years’ testing, we did not anticipate
           finding any errors; consequently, we would not need to project our results.
II.     Determined whether manual levies issued by revenue officers and ACS personnel
        complied with legal guidelines in 26 U.S.C. § 6330.


1
  26 U.S.C. § 6330 (Supp. IV 1998) as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the
Job Creation and Worker Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21 (codified in scattered sections
of 26 U.S.C., 29 U.S.C., and 42 U.S.C.); the Victims of Terrorism Tax Relief Act of 2001, Pub. L. No. 107-134, 115
Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763.
2
  The ACS is a telephone contact system through which telephone assistors collect unpaid taxes and secure tax
returns from delinquent taxpayers who have not complied with previous notices.
3
  The ICS is an automated system used to control and monitor delinquent cases assigned to revenue officers in the
IRS field offices.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                         Page 6
       Taxpayer Rights Are Being Protected When Levies Are Issued

A. Identified any references to manual levies issued between July 1 and
   September 30, 2004, by querying the history narrative text field of the ICS open and
   closed case inventories and the ACS open case inventory. We identified and
   reviewed a judgmental sample of 32 manual levies from the open and closed ICS
   cases and a judgmental sample of 29 manual levies from the open ACS cases.
   1. Requested complete case history files (history query) for all cases containing
      references to manual levies identified in step II.A.
   2. Reviewed case history documentation and identified whether a revenue officer or
      an ACS employee (Customer Service Representative) had issued a manual levy.
   3. Analyzed Master File transcripts and ACS and ICS history files to determine
      whether taxpayers were provided at least 30 days notice prior to any levy action
      initiated by the IRS.




                                                                                  Page 7
                   Taxpayer Rights Are Being Protected When Levies Are Issued

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Julian E. O’Neal, Lead Auditor
Darryl Roth, Senior Auditor




                                                                                       Page 8
              Taxpayer Rights Are Being Protected When Levies Are Issued

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Communications, Government Liaison & Disclosure, Small Business/Self-Employed
Division SE:S:CGL&D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                  Page 9
Taxpayer Rights Are Being Protected When Levies Are Issued

                                                             Appendix IV


             Example of Levy (Form 668-B)




                                                                  Page 10
